                     REVIEW OF FUNDING AND MANAGEMENT
                       CONTROLS OVER THE INTEGRATED
                          ACQUISITION ENVIRONMENT,
                            FEDERAL ASSET SALES,
                        AND E-TRAVEL E-GOV INITIATIVES
                      REPORT NUMBER A040139/F/6/F05018
                                MARCH 7, 2005




                                       NOTICE

This report has been developed by and is the property of the Office of Audits, Office of
Inspector General. Copies of the report have been provided to agency personnel for
official purposes only and they should not be disseminated further.
Agency officials who receive requests to release this report to anyone outside of the
General Services Administration should refer the requestor to the Office of Inspector
General, Office of Counsel – Freedom of Information Officer.
            REVIEW OF FUNDING AND MANAGEMENT CONTROLS
            OVER THE INTEGRATED ACQUISITION ENVIRONMENT,
          FEDERAL ASSET SALES, AND E-TRAVEL E-GOV INITIATIVES
                   REPORT NUMBER A040139/F/6/F05018


                             TABLE OF CONTENTS

                                                                Page

REPORT LETTER                                                    1

INTRODUCTION                                                     3

 Background                                                      3

 Survey Objective, Scope and Methodology                         3

RESULTS OF SURVEY                                                5

 Brief                                                           5

 Use of the General Supply Fund                                  6

 Management Controls                                             6

 Future Funding                                                  10

 Internal Controls                                               11

APPENDIX

 Report Distribution                                            A-1
Date : March 7, 2005
Reply to
Attn of    : Heartland Field Audit Office (JA-6)

Subject    : Review of Funding and Management Controls Over the Integrated Acquisition
             Environment, Federal Asset Sales, and E-Travel E-Gov Initiatives
             Report Number A040139/F/6/F05018

To         : Donna D. Bennett
             Commissioner, Federal Supply Service (F)

            Michael W. Carleton
            Chief Information Officer (I)


            This report presents the results of our review of the Integrated Acquisition Environment
            (IAE), Federal Asset Sales (FAS), and e-Travel electronic government initiatives. This
            review, which did not extend beyond the survey phase, was included in the Office of
            Inspector General’s annual audit plan for FY 2004, primarily at the request of FSS. The
            survey focused on funding and management controls, because those were the areas
            that FSS asked us to include in the scope of our survey.

            During our survey, we found that GSA’s Office of General Counsel researched whether
            the General Supply Fund could be used to pay for all or part of the development of the
            IAE, e-Travel, and FAS E-Gov initiatives. Except for the real property portion of FAS,
            they determined that it is legally acceptable to use the General Supply Fund for this
            purpose. Some agencies have paid a portion of E-Gov development costs. IAE has
            been particularly successful in obtaining funding participation during the development
            stage. However, the Department of Defense wanted to reduce the amount they agreed
            to pay in FY 2004 for development of the IAE initiative. This action appears to validate
            FSS fears that agencies would not honor their signed Memorandums of Understanding.

            For the projects that used FSS funds for development, it would have seemed
            reasonable/logical to place responsibility for development and management decisions
            (those impacting cost, timeliness, and scope) with the part of the organization that was
            providing funding. In addition, we found that the most significant project management
            issues were beyond the control of the Program Management Office. However, the
            Administrator chose a matrix approach, and it is not clear that realigning responsibility
            would have improved the timeliness or reduced the cost of the initiatives.

            Project Managers for the three initiatives have considered how to fund their operations
            after the development stage is complete. The Project Manager for e-Travel has


                                                        1
proposed that the e-Travel fee not include an amount for program overhead costs until
FY 2007.      The Project Manager for the IAE plans to continue their current fee
calculation and collection procedure. However, as noted above, there appears to be a
legitimate concern about whether agencies will honor their funding agreements with
IAE. Calculating the FAS fee will be difficult since a vendor protest was upheld and
there is continuing uncertainty surrounding the expected sales volume. We expect that
the program offices, Sponsors, and FSS will adjust the fees after implementation based
on actual costs and transaction volumes.

Because the report contains no recommendations, a response is not required. If you
have any questions or would like additional information regarding the report, please
contact John Pollock or me at 816-926-7052.



Arthur L. Elkin
Regional Inspector General for Auditing
Heartland Region




                                 -




                                          2
                   REVIEW OF FUNDING AND MANAGEMENT CONTROLS
                   OVER THE INTEGRATED ACQUISITION ENVIRONMENT,
                 FEDERAL ASSET SALES, AND E-TRAVEL E-GOV INITIATIVES
                          REPORT NUMBER A040139/F/6/F05018


                                                  INTRODUCTION

Background

Implementing electronic government is a key element in the President’s Management
Agenda. On July 18, 2001 the Office of Management and Budget (OMB) issued
Memorandum M-01-28 that established the Electronic Government Task Force. The
President’s Management Council adopted the recommendations of this task force when
it approved the 23 electronic government initiatives1 on October 3, 2001.

Three of the initiatives that were assigned to GSA were Integrated Acquisition
Environment (IAE), Federal Asset Sales (FAS), and e-Travel. These initiatives were
funded in whole or in part from the General Supply Fund (GSF), a revolving fund of
GSA’s Federal Supply Service (FSS) that is funded through user fees. In FY 2005, e-
Travel is expected to move to FSS, IAE is expected to move to GSA’s Office of the
Chief Acquisition Officer, the real property portion of FAS is expected to move to GSA’s
Public Buildings Service, the personal property portion of FAS is expected to move to
FSS, and ongoing development of utilization and donation policies will be considered by
Office of Governmentwide Policy.

The IAE initiative is charged with (1) creating a simpler, common, integrated business
process for buyers and sellers that promotes competition, transparency and integrity; (2)
increasing data sharing to enable better business decisions in procurement, logistics,
payment, and performance assessment; and (3) taking a unified approach to obtain
modern tools to leverage investment costs for business related processes. The mission
of FAS is to develop a secure, effective, and efficient one-stop online environment that
provides clear information and a marketplace for buyers and sellers of Federal assets.
E-Travel goals are to (1) develop a Government-wide, web-based, world-class travel
management service, (2) establish a cost model that reduces or eliminates capital
investment and minimizes total cost per transaction for the Government, and (3) create
a policy environment based on the use of best travel management policies.

Survey Objective, Scope and Methodology

Our survey objective was to identify and evaluate funding and management controls
over the IAE, FAS, and e-Travel electronic government initiatives. We decided not to
advance beyond the survey phase of the review.

1
    The number was subsequently increased to 25 initiatives with the addition of the e-Payroll initiative and the
    separation of e-Clearance from the Integrated Human Resources initiative.



                                                            3
To accomplish the objective of our survey, we:

1. Met with the FSS Commissioner and the FSS Controller to understand their
   concerns, since they requested this project.
2. Held discussions with the following individuals and obtained documentation related
   to funding decisions and/or management controls: FSS Controller and his staff,
   Sponsors, Project Managers, project team members, GSA’s E-Gov Program
   Manager, GSA’s Office of General Counsel, Counsel to the Inspector General, and
   GSA’s Office of the Chief Financial Officer.
3. Attended a session about FSS’ personal property e-solution at the 2004 GSA Expo.
4. Attended sessions at the National Travel Forum 2004 that dealt with e-Travel,
   including demonstrations of the systems offered by Northrup Grumman, CW
   Government Travel, and EDS.
5. Reviewed public laws and OMB Circulars.
6. Reviewed reports by the Government Accountability Office (GAO) and Federal CIO
   Council that provide guidance for information technology projects.
7. Reviewed GAO reports that document their oversight of the electronic government
   initiatives.
8. Reviewed the President’s Management Agenda and documentation related to
   selection of the initiatives by Quicksilver and the President’s Management Council.

The review was conducted in accordance with generally accepted Government auditing
standards that are applicable to the survey phase of a performance audit.




                                           4
                                RESULTS OF SURVEY

Brief

GSA’s Office of General Counsel researched the issue of using the GSF to pay for all or
part of the development of the IAE, e-Travel, and FAS E-Gov initiatives. Except for the
real property portion of FAS, they determined that it is legally acceptable to use the GSF
for these three E-Gov initiatives. We have no basis to challenge their determination.
Some agencies have paid a portion of E-Gov development costs. IAE has been
particularly successful in obtaining funding participation during the development stage.
However, the Department of Defense was seeking to reduce the amount they agreed to
pay in FY 2004 for development of the IAE initiative. This action appears to validate
FSS fears that agencies would not honor their signed Memorandums of Understanding.

For the projects that used the GSF for development, it would have been
reasonable/logical to place responsibility for development and management decisions
(those impacting cost, timeliness, and scope) with the part of the organization that
funded the initiatives. However, the Administrator chose a matrix approach in which
project management experts developed the initiatives with input from OMB, industry,
high level GSA management, and user agencies. While some of the E-Gov projects will
cost more, take longer, and achieve less than originally envisioned, it is not clear that
realigning responsibility would have impacted these outcomes. Numerous individuals
are involved in the E-Gov projects, but it seems widely understood that (1) the line of
authority runs from the Administrator to the Sponsors to the Project Managers, with
others (including the E-Gov Program Manager, GSA Chief Financial Officer, FSS
Controller, GSA Executive Committee, OMB, etc.) providing advice and assistance and
(2) the Administrator will ultimately hold the Sponsors accountable for the success or
failure of the initiatives. Based on discussions with project teams and the E-Gov
Program Manager and review of limited documentation, there appears to be adequate
planning, review, approval, reporting, tracking, and separation of duties at the
transaction level.

Project Managers for the three initiatives have considered how to fund their operations
after the development stage is complete. The Project Manager for e-Travel has
proposed that fees do not include an amount for program overhead costs until FY 2007.
The Project Manager for IAE expects that their current fees and collection mechanism
will continue, but as noted above, there appears to be a legitimate concern regarding
whether agencies will honor their funding agreements. Calculating the FAS fee will be
difficult since GAO recently upheld a vendor protest and there is continuing uncertainty
surrounding the expected sales volume. We understand that all fees can be adjusted
after implementation based on actual costs and transaction volumes.




                                            5
Use of the General Supply Fund

It appears that GSA’s Administrator made the decision to use the GSF for part or all of
the development costs of the IAE, FAS, and e-Travel initiatives after consultation with
numerous parties, including Sponsors, the E-Gov Program Manager, OMB, FSS Office
of the Controller, Office of the Chief Financial Officer, etc. Further, the discussion
continued even after the decision was made. We have no basis to question the
Administrator’s determination.2

In November 2001, the FSS Office of the Controller asked a Supervisory General
Attorney in GSA’s Office of General Counsel whether it would be permissible to use the
GSF for Government-wide initiatives. The attorney indicated the circumstances under
which the Federal Property and Administrative Services Act of 1949, as amended,
permitted use of the GSF, but said he did not know enough about the intended use of
the initiative to make a specific determination.

In April 2003, in response to queries from GSA’s Office of the Chief Financial Officer, a
General Attorney in GSA’s Office of General Counsel, issued an “informal memo” that
further discussed the issue. It concluded that IAE, e-Travel, and the personal property
portion of FAS could be funded from the GSF, but that the real property portion of FAS
would need to be funded another way (possibly from the Federal Buildings Fund “in the
proportion of its anticipated use of the initiative”). It also documented other acceptable
funding options, including using the Working Capital Fund for e-Travel, using an
appropriation for policy and citizen services for FAS and IAE, using an appropriation for
Government-wide activities associated with utilization and donation of surplus property
and disposal of real property for FAS, and using Section 629 money and/or the E-Gov
Fund for the E-Gov initiatives.


Management Controls

Based on our survey work, it appears that controls have generally been adequate to
ensure that the projects have progressed, costs have been reviewed, and problems
have been discussed appropriately with stakeholders. It is unclear whether controls
could have been enhanced with a different organizational structure, because it is difficult
to evaluate the path not taken.

GSA’s E-Gov Program Manager and the FSS Controller would each have preferred
more line authority over the projects, but it is not clear that either change would in and
of itself have led to expedited development or reduced costs. One Sponsor didn’t feel
like she had enough control over her project, but this appears to have been an
unavoidable anomaly because the scope of the project encompassed non-GSA
systems. It appears that the Project Manager for this initiative and the E-Gov Program

2
    In April 2003, GSA’s Office of General Counsel advised GSA’s CFO that it would not be correct for the
    GSF to pay the development costs of the real property portion of FAS. Accordingly, PBS agreed to pay
    $1 million of FAS development costs.


                                                     6
Management Office kept the Sponsor apprised of initiative progress and problems as
well as possible, by, for example, providing periodic briefings, including her in the review
process for the annual Business Cases, and including her signature on Memorandums
of Understanding and Memorandums of Agreement.

An anomaly of these projects is that because they were part of the President’s
Management Agenda and were assigned by the OMB, GSA officials did not feel like
they could refuse a project, even if a project did not appear to have wide customer
support. Another anomaly of these projects is that the OMB has taken an active role in
their management. While this provides an additional control, in the case of FAS, it led
to a scope revision that the project development team believes increased the time and
cost of the project.

Absent the authority to cancel or defer a project until solutions for major barriers could
be found, we believe that controls have generally been adequate to ensure that these
system development projects are planned and progressing toward a conclusion in an
organized way and problems are highlighted and discussed by appropriate individuals.
Further, based on procedures described to us by the project development teams and
GSA’s E-Gov Program Manager and limited reviews of documentation, there appears to
be adequate procedures for processing Business Cases, purchases requests and
payments.

We noted that many of the tenets set forth in GAO’s Standards for Internal Control in
the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999) and in GAO
reports that discuss system development projects were followed. For example, a
committee selected projects after reviewing data about cost, risks, and potential
benefits.     GSA’s Administrator demonstrated senior management commitment,
established a full-time Program Management Office to coordinate development
activities, determined that each initiative should have a full-time project manager,
identified a funding source for development of the initiatives, and he and other GSA
managers obtain regular briefings. In addition, Charters were developed to document,
among other things, the scope of the project and the organizational structure, and the
project development teams annually prepare Business Cases for review by senior GSA
management and the OMB. The Business Cases contain descriptions of the projects,
identify risks and mitigation strategies, state assumptions, identify costs and benefits,
and evaluate alternative solutions, as recommended by the GAO reports.

Despite following many of GAO’s guidelines and having a great deal of interest and
scrutiny, some interesting developments have occurred with the E-Gov initiatives:


   Funds Control Issues

   •   Even though the GSF is being used to pay in whole or in part for
       development of these three initiatives, the FSS Office of the Controller is
       not vested with the authority to make decisions regarding the amount of



                                             7
    GSF money that is spent on the initiatives. This was a prime concern of
    the FSS Office of the Controller and the FSS Commissioner. We
    understand their concern, because it would generally seem logical and
    reasonable for FSS to have control over the projects paid for with the
    GSF. However, mitigating controls include oversight by the OMB,
    Sponsors, GSA’s E-Gov Program Manager, and Project Managers, and
    regular briefings of various GSA management officials.

•   The Sponsors, rather than the E-Gov Program Manager, were assigned
    financial and management authority, and the E-Gov Program Manager
    was not assigned a Government funds control person. The E-Gov
    Program Manager believes this weakened controls, particularly over
    charge card purchases. However, he developed controls over project
    development and expenditures that appear to compensate for this
    potential weakness. For example, he hired a private sector funds control
    person, prohibited the Project Managers from using charge cards for most
    development costs after the first year, and worked with the Office of the
    Chief Financial Officer to develop ad hoc Pegasys reports. He keeps a
    log that shows information regarding purchase requests, reviews purchase
    requests to ensure that they are within the scope of the project, reviews
    draft Business Cases, receives periodic progress updates from the Project
    Managers, etc.

•   Some agencies have paid a portion of the development costs for these
    initiatives. IAE has been particularly successful in obtaining funding
    participation during the development stage. IAE has formalized agency
    commitments through Memorandums of Understanding that have been
    signed by officials from GSA and the customer agency. The FSS
    Commissioner and the FSS Controller have expressed concern that
    agencies will not meet the obligations outlined in their signed
    Memorandums of Understanding or might seek to reduce their funding
    level if appropriations become tight. Their concerns appear to have
    validity, because the Department of Defense wanted to reduce the amount
    they agreed to pay in FY 2004 for development of the IAE initiative.


Management Issues Related to Project Progress

•   In some cases, the Sponsors were given responsibility for projects that
    included issues that were outside of their normal areas of expertise. For
    example, two Public Buildings Service officials with real estate expertise
    were designated the Sponsor and Project Manager of FAS, but a large
    part of this initiative’s resources have been spent developing a solution for
    selling personal property. FSS was designated the Sponsor for IAE, but
    this initiative includes systems that are not FSS systems. While additional
    subject matter expertise would have been beneficial, project management


                                         8
    seems to be the dominant skill necessary for successfully concluding
    these projects. In addition, in the case of FAS, a GSA personal property
    expert was assigned to the initiative.

•   OMB assigned the three projects to GSA and provides oversight. While
    OMB’s participation can enhance oversight and control, some GSA
    officials believe that it has also increased the time and cost of
    development. For example, when FAS had been under development for
    about a year, OMB directed that FAS include utilization and donation, in
    the scope of their project, in addition to sales. Further, there was debate
    between OMB and the project team about whether FAS should include
    financial assets. Ultimately, financial assets were deleted from the scope
    of the project.

•   The Acting Director of FSS’ Property Management Division advised us in
    May 2004 that when FSS absorbs the personal property aspect of FAS,
    FSS plans to continue operating its current personal property sales
    program GSA auctions as part of the overall FAS solution, along with the
    vendor solution. Customer agencies will have a choice of sales solutions
    under the overall umbrella of FAS: GSA Auctions or the options offered by
    the FAS vendor.

•   FAS continues to miss milestones. The Project Manager advised us that
    the personal property portion of FAS would not be transferred to FSS in
    October 2004 as the FAS Team and FSS had agreed. In addition, in May
    2004, Liquidity Services, Inc., protested the award of the FAS personal
    property sales contract to Maximus, Inc., and the GAO ruled in their favor
    in August 2004. The impact of this ruling on the FAS initiative is unknown
    at this time.

•   FAS initially included only asset sales, but utilization and donation were
    later added at the insistence of OMB. Still, the initiative lacks the
    acquisition and use phases. FAS’ FY 2004 Business Case highlights the
    issue, stating: “An additional opportunity for improvement, however, lies in
    FAS’ ability to become part of a much broader Asset Management
    Lifecycle Framework context. . . . Currently, no program exists to integrate
    these three efforts [acquisition, use, and utilization/donation/sale] into a
    unified asset management improvement program.”

•   E-Travel is expected to cost over $40 million to develop from FY 2002
    through FY 2005, and the anticipated 10-year cost of their contracts with
    three vendors is $450 million. However, they do not anticipate initially
    including data warehousing capability. The e-Travel Project Manager
    views data warehousing as a key system functionality that enhances
    benefits of the system to the Government.



                                         9
Future Funding

The FSS Commissioner and officials from the FSS Office of the Controller advised us
that they are concerned that the initiatives may not generate adequate revenue to cover
expenses when the initiatives move from the developmental to the operational phases.
Based upon information we have received, we believe they may be correct, but that this
will not occur without considerable input and oversight.

Not all decisions have been finalized regarding funding for the initiatives after the
development stage is complete. However, plans are being made to move the initiatives
to operational units within GSA and collect user fees. It appears that the plans made
thus far have been based on a review of costs, consideration of the impact of fees on
customer agencies, and discussion within GSA.

A few funding issues appear worthy of note:

   •   OMB’s FY 2005 Passback states that all initiatives will be self-sustaining
       by FY 2006. However, if it achieves its transaction goals, e-Travel
       expects to break-even in FY 2007 with its established Industrial Funding
       Fee of $3.50 per transaction, but only if overhead costs are not
       considered. When this initiative is transferred to an operational unit, it
       would seem reasonable for the initiative to assume its fair share of
       overhead costs (such as space and personnel) that are paid by other GSA
       operational programs. It seems that to do otherwise would unfairly inflate
       the amount of overhead costs that other programs would need to recover
       from their customers.

   •   FAS anticipates recovering costs from property sales proceeds, but has
       not yet established fees, and its probable business volumes are unclear at
       this time. The Acting Director, Property Management Division, advised us
       in May 2004 that when FSS absorbs the personal property aspect of FAS,
       they plan to continue operating their current personal property sales
       program as part of the overall solution along with the vendor solution. In
       addition, FAS officials requested but did not obtain a mandate for
       agencies to use their solution, and the GAO recently upheld a vendor
       protest of the contract awarded to Maximus. All of this leads to
       uncertainty regarding the future of FAS and the business volumes they
       can expect, and therefore will make an Industrial Funding Fee calculation
       difficult.

   •   IAE anticipates being funded through subscription fees, rather than per-
       transaction fees. In June, 2004, the Project Manager advised us that:
       “Our model has been three tiers, with the largest agencies paying 0.03%
       of their procurement volume, the mid-range 0.02% and the remainder of
       the CFO Act agencies paying 0.01%. Unless/until or [sic] board changes
       that, this will be the model for all future years.” FSS’ concerns that


                                          10
      agencies may not honor their signed Memorandums of Understanding or
      may seek to reduce their funding level appear to have validity, since in
      August 2004, the Department of Defense sought to reduce their IAE
      developmental investment during Fiscal Year 2004 by $1.4 million.


Internal Controls

We did not perform any tests on internal controls. However, we did discuss program
processes with GSA officials and reviewed limited documentation to gain a general
understanding of the control environment.




                                        11
APPENDIX
     REVIEW OF FUNDING AND MANAGEMENT CONTROLS OVER THE
             INTEGRATED ACQUISITION ENVIRONMENT,
       FEDERAL ASSET SALES, AND E-TRAVEL E-GOV INITIATIVES
                REPORT NUMBER A040139/F/6/F05018


                                REPORT DISTRIBUTION

                                                                          Copies

Commissioner, Federal Supply Service (F)                                    2

Chief Information Officer (I)                                               2

Audit Follow Up and Evaluation Branch (BECA)                                1

Assistant Inspector General for Auditing (JA)                               2

Regional Inspector General for Acquisition Programs Audit Office (JA-A)     1

Audit Planning Staff (JAO)                                                  1

Assistant Regional Inspector General for Investigations (JI-5/KC)           1




                                        A-1
